No.
IN THE

Supreme Court of tfje fflntteb States?
NICOLE BARONE,
Petitioner,
v.

WELLS FARGO BANK N.A.,
Respondent.
PETITION FOR A WRIT OF CERTIORARI TO
THE FLORIDA FOURTH DISTRICT COURT OF APPEALS

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)

I, Nicole Barone hereby certify that to the best of my knowledge, according to
the word count tool in Microsoft Word, the Petition for a Writ of Certiorari consists of
7993 words, including footnotes and excluding the sections enumerated by Rule
33.1(d).

By:
Nicole Barone
PO Box 5493
Lighthouse Point, Florida 33074
954-644-9900
Pro Se Petitioner

1

received
SEP -3 2020

